No. 20A34
In the

Supreme Court of the United States
__________

U.S. FOOD AND DRUG ADMINISTRATION, et al.,
Applicants,

v.

AMERICAN COLLEGE OF OBSTETRICIANS AND GYNECOLOGISTS, et al.,
Respondents.
__________
RESPONSE IN OPPOSITION TO DEFENDANTS-APPLICANTS’
SUPPLEMENTAL BRIEF IN SUPPORT OF APPLICATION FOR A STAY
__________
John A. Freedman
R. Stanton Jones
David J. Weiner
Jocelyn A. Wiesner
Andrew Tutt
Gina Colarusso
ARNOLD & PORTER KAYE
SCHOLAR, LLP
601 Massachusetts Ave., NW
Washington, DC 20001
David D. Cole
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th Street, NW
Washington, DC 20005

Julia H. Kaye
COUNSEL OF RECORD
Jennifer Dalven
Rachel Reeves
Whitney White
Ruth E. Harlow
Louise Melling
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
Phone: (212) 549-2633
jkaye@aclu.org
Lorie A. Chaiten
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
1640 North Sedgwick Street
Chicago, IL 60614
Attorneys for Plaintiffs-Respondents

The United States is now facing “the most deadly phase” of the COVID-19
pandemic, Suppl. App. 5a (quoting the White House Coronavirus Task Force
Coordinator), with “uniformly dire” conditions nationwide, id. at 30a. Nevertheless,
Defendants-Applicants (“Defendants”) ask this Court to take the extraordinary step
of staying a preliminary injunction that protects patients and health care providers
from life-threatening COVID-19 risks. Their application should be denied.
Five months ago, Plaintiffs-Respondents (“Plaintiffs”)—whose members
include more than 60,000 physicians in all 50 states and the department chairs of
obstetrics and gynecology at nearly 150 universities nationwide, Dkt. 11-5, ¶ 3; Dkt.
11-8, ¶ 3; Dkt. 11-11, ¶ 51—secured a preliminary injunction temporarily blocking
the government from enforcing its requirement that abortion patients travel to a
health center during the pandemic for the sole purpose of picking up a pill and signing
a form (the “In-Person Requirements” or “Requirements”). In October, this Court left
that preliminary injunction in place while directing the parties to build a “more
comprehensive record” in the district court, including as to whether any “relevant
circumstances had changed.” Food & Drug Admin. v. Am. Coll. of Obstetricians &
Gynecologists, No. 20A34, slip. op. at 1, 2020 WL 5951467 (U.S. Oct. 8, 2020)
[hereinafter “October Order”] (mem.). Through the lens of that supplemental record,
Defendants’ failure to meet their heavy burden is even more plain.
The district court made extensive findings detailing how Defendants’ InPerson Requirements continue to subject patients to needless and grave health risks
All references to the “Dkt.” are citations to Case No. TDC-20-1320 in the U.S. District Court for the
District of Maryland.

1

1

that “ha[ve] only gotten worse” nationwide since July. Suppl. App. 15a. At the same
time, the court found that—months after the injunction took effect—“Defendants
have offered no evidence that their temporary inability to enforce the In-Person
Requirements has injured them or, for that matter, harmed a patient.” Id. at 29a
(emphasis added). Since mifepristone patients were already free to have their
evaluation and counseling done via telemedicine and to swallow the mifepristone
tablet at the time and place of their choice, see App. 4a–7a, temporarily enjoining the
in-person pick-up requirement averts serious viral risks with no countervailing cost.
Indeed, the court noted that Defendants have maintained their nationwide
suspensions of in-person requirements for other drugs during the pandemic,
including permitting patients throughout the country to forgo “otherwise mandatory
in-person evaluations” and counseling before obtaining opioids like fentanyl, which
cause so many overdose deaths each year that they are the subject of their own official
national emergency. Suppl. App. 17a; Dkt. 142-4, ¶¶ 13–17.2 Given the breadth of
Plaintiffs’ membership, the uniformly deteriorating conditions, and Defendants’
nationwide actions to prevent unnecessary travel even for far less safe drugs, the
court concluded that the scope of relief remained proper. Suppl. App. 30a–32a.
Defendants’ brief ignores all but two pages of the district court’s recent
decision, presumably because the record evidence overwhelmingly counsels against a
stay. See generally Defs.’ Suppl. Br. Supp. Appl. Stay (“Defs.’ Suppl. Br.”). Their

See also Renewal of Determination That a Public Health Emergency Exists, U.S. Dep’t of Health &
Human Servs. (July 6, 2020), https://www.phe.gov/emergency/news/healthactions/ phe/Pages/opioid6jul2020.aspx (Defendant Azar renewing for the tenth time “the October 26, 2017 determination . . .
that a public health emergency exists nationwide as a result of the consequences of the opioid crisis”).

2

2

argument that contextless, cherry-picked data from two states disproves the burdens
on patients, see id. at 2, 4–7 (citing Suppl. App. 27a–28a), is hardly relevant to, much
less defeats, the district court’s core finding that the In-Person Requirements present
a substantial obstacle by subjecting medication abortion patients to heightened risk
of contracting a deadly disease, Suppl. App. 15a (citing App. 44a-45a).
In early October, when the Court sent this matter back to the district court,
some might have hoped the pandemic was easing. But the risks and burdens reflected
in the record have since worsened so profoundly that Defendants have abandoned in
this Court their claim below that “changed circumstances” justify a stay. Dkt. 141-1,
1. All the arguments Plaintiffs previously raised (and incorporate by reference here)
are only bolstered by the supplemental record. There is even less basis to support a
stay today than there was in October, when this Court initially declined to grant one.
1. Defendants Have Not Met the Threshold
Extraordinary Relief from This Court.

Requirement

for

As a threshold matter, Defendants’ renewed application to this Court is
premature: Defendants have not requested that the court of appeals grant a stay
based on the supplemental record and thus “adequate relief” still may be available to
them from that court. Sup. Ct. R. 20.1 (2019) (extraordinary relief under 28 U.S.C.
§ 1651(a) requires a showing that “adequate relief cannot be obtained . . . from any
other court”). This Court’s rules require that a stay application “set out with
particularity why the relief sought is not available from any other court,” Sup. Ct. R.
23.3, yet Defendants do not even attempt to make that showing. See Williams v.
Wilson, 140 S. Ct 2800, 2801 (2020) (mem.) (declining to grant stay where “the
3

Government ha[d] not sought review of or a stay of” the district court’s most recent
order in the court of appeals); In re United States, 139 S. Ct. 452, 453 (2018) (denying
stay without prejudice where “adequate relief may be available” in the court of
appeals); Conforte v. Comm’r, 459 U.S. 1309, 1312 n.2 (1983) (Rehnquist, J., in
chambers) (“Applicant’s failure to seek a stay in the Court of Appeals provides an
alternate ground for denial of the stay.”); In re Blodgett, 502 U.S. 236, 240 (1992)
(“[A]s a predicate for extraordinary relief, the State should have asked the Court of
Appeals [for relief] before coming here.”).
The fact that the prior stay application was held in abeyance does not alter this
requirement, as the record on which a stay should or should not be granted is now
different, and has not been considered by the court of appeals. There is no reason to
believe the court of appeals would not consider that full record were Defendants to
seek such relief. The rules regarding stays are designed to obviate unnecessary
intervention by this Court, and that purpose would be fully served here by requiring
Defendants to seek relief first in the court of appeals. For this reason alone, this Court
should deny Defendants’ stay application—or, at a minimum, continue to hold it in
abeyance while Defendants exhaust their opportunities for relief below.
2. The Supplemental Record Only Bolsters the District Court’s Finding
of a Likelihood of Success on the Merits.
The district court’s July 13 opinion granting the preliminary injunction rested
“primarily” on its finding that, in the context of the COVID-19 pandemic, Defendants’
In-Person Requirements impose “‘a significant burden upon patients’” with “‘travel to
medical facilities fraught with health risk to [those patients], medical professionals,
4

others they encounter during such trips, and the members of their households to
whom they return.’” Suppl. App. 15a (quoting App. 44a–45a). When that record was
first considered by this Court, the Court declined to grant a stay but requested further
factual development. See October Order, slip. op. at 1. This fall, in accordance with
the Court’s order, the parties submitted supplemental evidence in the district court
principally focused on whether there have been any “changes in the severity of the
problems caused by the COVID-19 pandemic” since July such that a stay, dissolution,
or modification of the preliminary injunction is warranted. Id., slip. op. at 2 (Alito, J.,
dissenting); see also Suppl. App. 13a; Dkt. 141-1, 1.
Plaintiffs’ evidence included declarations from four leading national experts in
public health, epidemiology, and economics, regarding the dire state of the pandemic,
the increased risks and burdens associated with traveling for health care, and why
the injunction remains essential to protect abortion patients from serious and
needless exposure risks.3 Defendants relied exclusively on declarations from officials
in several states “describing changes to public health restrictions and guidance in

Specifically, Plaintiffs submitted expert declarations from: (1) Arthur L. Reingold, M.D., a former
CDC official and the Division Head of Epidemiology at the University of California, Berkeley School
of Public Health, who currently chairs Governor Newsom’s California COVID-19 Scientific Safety
Review Workgroup, Dkt. 142-1; (2) Mary Travis Bassett, M.D., M.P.H., the Director of Harvard
University’s François-Xavier Bagnoud Center for Health and Human Rights, who served as
Commissioner of New York City’s Department of Health and Mental Hygiene from 2014–2018, Dkt.
142-2; (3) Ameet Sarpatwari, Ph.D., J.D., a pharmacoepidemiologist, public health expert, and
Assistant Professor of Medicine and Health Policy at Harvard University who currently serves as the
Principal Investigator on a multi-year collaborative study with the United States Food & Drug
Administration (“FDA”) to assess how FDA’s Risk Evaluation and Mitigation Strategies (“REMS”)
programs have impacted physician and patient burden, drug utilization, safety monitoring, and health
outcomes, Dkt. 142-4; and (4) Trevon D. Logan, Ph.D., a Professor of Economics at The Ohio State
University and Research Associate of the National Bureau of Economics Research, who previously
served as the President of the National Economics Association, Dkt. 142-5.

3

5

their states during the COVID-19 pandemic.” Suppl. App. 3a.4 Defendants did not
submit a single declaration from any FDA, U.S. Department of Health and Human
Services (“HHS”), or other federal official. Id. at 16a, 28a. Nor did they submit any
evidence relating to the injunction’s impact on patient safety. Id. at 29a.
Based on the supplemental evidence and data from the U.S. Centers for
Disease Control and Prevention (“CDC”), the court found that, far from improving,
the “health risk” imposed by the In-Person Requirements “has only gotten worse.” Id.
at 15a. The court explained that, since the preliminary injunction was issued, “the
number of COVID-19 cases in the United States has increased four-fold, from over
three million to more than 14.5 million, and the number of deaths from COVID-19
have more than doubled, from 130,000 to more than 280,000.” Id. at 15a–16a. On July
13, the CDC’s national seven-day moving average of new cases per day was
approximately 44,000; as of December 5, it was 188,504, id. at 16a; and it has risen
still further in just the past two weeks, to 239,604 as of December 20.5 The court
emphasized that “[t]his increase is not limited to any one part of the nation. In 49
states and the District of Columbia, the seven-day moving average of daily new cases
is higher now than in July.” Id. One would have to close one’s eyes and ears not to
know that the risks of contracting COVID-19 are at the highest they have ever been.
Presumably for that reason, as the district court noted, “although the CDC, the

Defendants’ declarants work for the States of Alabama, Idaho, Indiana, Kentucky, Mississippi,
Nebraska, and Oklahoma. Dkt. 141-4 to 141-11.
5 Trends in Number of COVID-19 Cases and Deaths in the US Reported to CDC, By State/Territory,
U.S.
Ctrs.
for
Disease
Control
&
Prevention,
https://covid.cdc.gov/covid-datatracker/#trends_dailytrendscases (last visited Dec. 21, 2020) [hereinafter “CDC COVID Data
Tracker”].
4

6

National Institutes of Health (“NIH”), and the FDA are all components of HHS,
Defendants have offered no expert opinions, from a scientist at one of these agencies
or elsewhere in the federal government, to contradict the facts and conclusions
provided by” Plaintiffs’ public health experts regarding the severe and ongoing viral
risks. Id. To the contrary, while Defendants’ motion was pending, “Dr. Deborah Birx,
Coordinator of the White House Coronavirus Task Force, issued a report stating that
the nation is ‘entering the most concerning and most deadly phase of this pandemic.’”
Id. at 5a. Recent CDC data confirms the accuracy of this assessment. As of December
20, the United States’s seven-day moving average of new COVID-19 deaths per day
was 2,654—nearly triple the seven-day moving average for deaths per day on August
26 (940), when Defendants first sought a stay in this Court, and approaching
quadruple the average number of daily deaths on July 13 (726).6
Moreover, the district court found that the “ongoing health risks from exposure
to COVID-19 are even more pronounced” for abortion patients, who “are
disproportionately low-income and women of color.” Suppl. App. 17a. Indeed, the
court found that Black and Hispanic people between the ages of 25 and 34 are more
than 700 percent more likely to die from COVID-19 than white people in the same
age range. Id. Here, too, Defendants offered nothing to contradict these facts.
The court rejected Defendants’ speculation, unsupported by any expert
testimony, that “[t]he precautionary measures that Americans are now aware of and
have access to have mitigated the risks of travel such that an individual trip does not

6

CDC COVID Data Tracker, supra n. 5.

7

increase the risk of contracting COVID-19 beyond that individual’s baseline risk.”
Dkt. 141-1, 7. For example, the court found that public transportation, which abortion
patients are disproportionately likely to need to get to a health center, see App. 14a,
“still presents significant risks of infection,” Suppl. App. 27a.7 And the court found
that the record rebutted Defendants’ equally unsupported speculation that increased
“use of masks” means that traveling to a health center does not increase a person’s
risk of contracting COVID-19, noting “the reality . . . that masks and mask mandates
have not prevented the present spikes in COVID-19 cases across the country.” Id. at
18a. For instance, Indiana “has had a mask mandate at least since September 2020,”
but “its seven-day moving average of new cases gr[e]w from 529 cases per day on July
13, 2020, . . . to 6,573 on December 5”—an increase of more than one thousand percent.
Id. at 19a; accord id. at 10a. Another declarant state, Kentucky, instituted a mask
mandate on July 10, when its seven-day daily case average was 327; by December 5,
Kentucky averaged 3,411 new cases each day. Id. at 18a.
The court concluded that the record evidence also did not support Defendants’
logical fallacy that forcing abortion patients to travel to a health center during the
pandemic cannot pose a substantial obstacle because “certain states [have] relaxed
public health restrictions since the spring of 2020.” Id. at 19a. Rather, the court found
(and Defendants’ own declarants admitted) that these local reopening decisions
“reflected judgments balancing economic needs, personal liberty, and other factors
with public health risk.” Id. at 22a; see also Dkt. 141-4, ¶ 12; Dkt. 141-6, ¶ 3; Dkt.
Notably, more than one in three abortion patients nationwide must travel at least 25 miles to get to
the nearest provider. Dkt. 11-3, ¶22.

7

8

141-9, ¶ 16. The court detailed the spiking rates of daily infections, hospitalizations,
and deaths in the states that submitted declarations, Suppl. App. 9a–10a, observing
“particularly significant increases in most of those numbers” in recent weeks. Id. at
9a. Based on unrebutted record evidence, the court concluded that “the reopenings
have likely contributed to the dramatic increases in cases.” Id. at 22a; accord id. at
10a. The states themselves have evidently drawn the same conclusion. As the district
court noted, the recent resurgences have prompted “all of these states . . . to reverse
course . . . impos[ing] or reimpos[ing] certain public health restrictions relating to the
opening or operation of businesses and facilities.” Id. at 20a. For example, while
Defendants’ motion was pending, the Governor of Oklahoma issued an emergency
order “that telemedicine ‘be used to maximum potential’ and be allowed ‘for nonestablished’ patients in response to COVID-19.” Id. at 21a.
The court also found that the population of patients seeking medication
abortion care continues to disproportionately face other “specific challenges” relating
to “economic conditions and access to medical facilities, childcare, and transportation”
during the pandemic. Id. at 24a. These factors only multiply the risks and burdens
these patients face, bolstering the court’s conclusion that the In-Person Requirements
continue to pose a substantial obstacle. Id. at 24a–27a; App. 47a–50a. For instance,
the court found that “childcare remains a significant challenge, particularly for lowwage workers,” largely due to ongoing “volatility in school schedules.” Suppl. App.
26a. The court observed that “[m]any school districts across the United States either
did not resume in-person classes or did so only as part of a hybrid model,” and that

9

the recent resurgence has prompted “numerous large school districts . . . to postpone
plans to reopen for in-person classes or to reverse course and suspend in-person
classes in favor of remote learning.” Id. at 25a–26a.
Finally, the court found that the evidence did not support “Defendants’ claim
that progress on medical treatments and vaccines for COVID-19 establishes changed
circumstances sufficient to warrant a stay or dissolution.” Id. at 22a. The court
reasoned that, “while the progress on vaccines and medical treatments for COVID-19
are cause for optimism and may advance the day that the Preliminary Injunction will
no longer be warranted, the impact of these advances to date has not meaningfully
altered the current health risks and obstacles to women seeking medication
abortions.” Id. at 23a. Far from it: the recent vaccine roll-out has coincided with the
highest infection and death rates since the pandemic began, with no signs of abating. 8
Rightly judging that they could not credibly rehash for this Court their
arguments that the risks and burdens of traveling during the pandemic have been
“eliminated or mitigated,” Dkt. 141-1, 21; accord id. at 5, 7, 19, Defendants instead
devote their supplemental brief to an argument they addressed only in passing in the
district court, see id. at 13–14: that small increases in the absolute numbers of
abortions in two states during a few months in 2020, as compared with 2019, disprove

CDC COVID Data Tracker: United States Forecasting (Weekly Cases), U.S. Ctrs. for Disease Control
& Prevention, https://covid.cdc.gov/covid-data-tracker/#forecasting_weeklycases (last visited Dec. 21,
2020); CDC COVID Data Tracker: United States Forecasting (Weekly Deaths), U.S. Ctrs. for Disease
Control & Prevention, https://covid.cdc.gov/covid-data-tracker/#forecasting_weeklydeaths (last visited
Dec. 21, 2020); ‘The weapon that will end the war’: Vaccinations begin across virus-ravaged America,
N.Y. Times, https://www.nytimes.com/live/2020/12/14/world/covid-19-coronavirus/the-weapon-thatwill-end-the-war-vaccinations-begin-across-virus-ravaged-america (last updated Dec. 18, 2020).

8

10

the district court’s extensive findings that forcing patients to risk exposure to COVID19 just to pick up a pill they are free to take at home imposes a substantial obstacle
on the right to abortion. Defs.’ Suppl. Br. 2, 4–7. But the district court correctly found
Defendants’ isolated abortion numbers beside the point. See Suppl. App. 27a–28a.
Defendants’ argument ignores the viral risks at the heart of this litigation, lacks any
scientific rigor, and cannot carry their heavy burden to justify a stay.
As an initial matter, Defendants’ sole focus on abortion numbers skirts the
central issue in this case: that the In-Person Requirements make heightened risk of
contracting a deadly disease a condition of obtaining a medication abortion. As
Plaintiffs have explained, this Court’s precedent does not permit the government to
predicate a patient’s access to abortion on serious and needless health risk to them
and their families. Pls.’ Resp. Opp’n Appl. Stay Prelim. Inj. (“Pls.’ Opp’n Br.”) 29–30.
But even looking at the question of whether some patients are ultimately able
to obtain an abortion despite these government-mandated viral risks, Defendants’
argument is woefully inadequate. Whether a policy imposes a substantial obstacle is
not determined simply by counting how many people obtained an abortion over a
given period without inquiring into any of the surrounding circumstances. Indeed,
the suggestion that this Court can draw conclusions about patients’ ability to access
abortion care based on data comparing only two (partial) years, see Defs.’ Suppl. Br.
2, 5, from “only two states,” Suppl. App. 27a, with no attempt to control for the myriad
confounding variables, defies rudimentary principles of statistical analysis. For
instance, Defendants read constitutional significance into the fact that there were 3.7

11

percent more abortions reported in Indiana between March and September 2020 than
during the same period for 2019—yet conveniently ignore that the number of
abortions in 2020 was five percent lower than for the same period in 2018.9 And
Defendants do not even attempt to explain the dramatic month-to-month variation
in Indiana’s abortion numbers during the pandemic: e.g., in July, up 14 percent
relative to 2019; in August, down 19 percent relative to 2019. See Dkt. 141-7, 5.
As every student of statistics learns on day one, correlation is not causation.
Yet Defendants make no effort to rule out the many other explanations for their data.
For example, as the district court found, Defendants entirely ignore—and certainly
do not control for—the fact that “demand for abortion services is likely increasing”
because of disruptions in contraceptive access, “sudden” unemployment, and other
pandemic-related “struggl[es]” that have made unwanted pregnancy more likely and
parenting less tenable for some. App. 15a, 45a–46a; accord Suppl. App. 27a–28a; see
also Dkt. 11-3, ¶¶ 20–21 (expert testimony from Allison Bryant Mantha, M.D.,
M.P.H., FACOG); Dkt. 142-5, ¶¶ 20, 37 (expert testimony from Trevon D. Logan,
Ph.D.). Nor do Defendants discuss whether and how disruptions in abortion services
during the pandemic in neighboring states like South Dakota and Ohio may have
increased the number of abortions in Nebraska and Indiana this year.10
See Ind. State Dep’t of Health, Terminated Pregnancy Report 2018, at Table 2 (2019),
https://www.in.gov/isdh/files/2018%20Indiana%20Terminated%20Pregnancy%20Report.pdf.
Plaintiffs note that 2020 data on abortions in these states are not yet publicly available and are solely
within the possession of Defendants and their declarants.
10 See, e.g., Arielle Zionts, South Dakota abortions halted in March due to pandemic, Rapid City J.
(Oct. 2, 2020; updated Nov. 7, 2020), https://rapidcityjournal.com/news/local/ south-dakota-abortionshalted-in-march-due-to-pandemic/article_f06e1f75-d8f6-50f4-b6b6-15f48afcc197.html (sole abortion
clinic in South Dakota has not provided any abortions since March); Preterm-Cleveland v. Att’y Gen.
of Ohio, 456 F. Supp. 3d 917, 934, 939 (S.D. Ohio 2020) (granting preliminary injunction of COVID-19
9

12

As these examples demonstrate, Defendants’ raw counts from two states,
devoid of any context or causal analysis, are neither scientifically valid nor
constitutionally meaningful. See A Woman’s Choice-East Side Women’s Clinic v.
Newman, 305 F. 3d 684, 692 (7th Cir. 2002) (rejecting undue burden argument based
on studies showing a decline in the number of abortions, in part because they “[left]
open . . . the reason why the effect occurs”); Karlin v. Foust, 188 F. 3d 446, 487–88
(7th Cir. 1999) (showing of decline in abortions without “adequately explain[ing] the
reason for the decline” failed to prove that the “drop in abortions . . . [was] causally
attributable to any unconstitutional effect of [state law]”).
Defendants likewise defy logic in attempting to dismiss the life-threatening
viral risks to which their In-Person Requirements subject patients as merely
“ordinary risks and hardships” of the pandemic for which Defendants cannot be held
responsible. Defs.’ Reply Supp. Appl. Stay (“Defs.’ Reply Br.”) 6; see also id. at 7; Defs.’
Suppl. Br. 3; Defs.’ Appl. Stay Inj. (“Stay Pet.”) 3, 15–17. Defendants created the InPerson Requirements, waived comparable requirements for other, far less safe drugs
(including fentanyl) during the pandemic, and have refused to do so here—thereby
affirmatively preventing abortion patients from adhering to the recommendations of
Defendants’ own CDC to avoid viral risk by using telemedicine whenever possible and
“mail-order, or other delivery services” for prescription medications.11 Patients who

executive order prohibiting surgical abortion procedures, but permitting such procedures only “on a
case-by-case basis” where the abortion is “medically indicated and cannot be delayed”; also noting that
executive order may prompt Ohio patients to “travel out of the state” for care).
11 U.S. Ctrs. for Disease Control & Prevention, Doctor Visits and Getting Medications (Sept. 11, 2020),
https://www.cdc.gov/coronavirus/2019-ncov/daily-life-coping/doctor-visits-medicine.html.

13

must take transportation, drop their children off with someone outside their
household, and engage in other in-person contact in order to obtain mifepristone
because of Defendants’ Requirements incur additional COVID-19 risk at every step
of the way, see App. 46a–48a—not through any choice of their own, but pursuant to a
federal mandate that, even according to Defendants, at most “might” advance some
hypothetical benefit, Stay Pet. 21–22; see also Pls.’ Opp’n Br. 33–37; infra p. 16.
Consider, by analogy, if the government had a rule forbidding grocery stores
from delivering to their customers’ homes, despite CDC recommendations that people
avoid viral risk by having their essentials delivered.12 Clearly, the heightened
COVID-19 risk incurred by any person who must pick up their groceries in person
against their wishes, only because of the mandate, would be attributable to the
government; that others might choose to take on those risks because they prefer to
shop in person is irrelevant. See Dkt. 142-2, ¶ 42. Likewise, as the district court
observed, that individuals may be “permitted to venture out during a pandemic to
restaurants or businesses does not establish that women should be mandated to risk
exposure to COVID-19 in order to exercise a constitutional right.” Suppl. App. 22a.
Finally, Defendants’ argument that the burdens their In-Person Requirements
impose during the pandemic are permissible because “surgical methods of abortion
remain widely available,” makes no sense. Stay Pet. 3; see also id. at 13–15; Defs.’
Suppl. Br. 2–3; Defs.’ Reply Br. 3–5. As Plaintiffs have explained, Defendants cannot
defend their decision to subject medication abortion patients to needless COVID-19
Running Essential Errands, U.S. Ctrs. for Disease Control & Prevention (Sept. 11, 2020),
https://www.cdc.gov/coronavirus/2019-ncov/daily-life-coping/essential-goods-services.html.

12

14

risk by arguing that, instead of obtaining their mifepristone by mail, patients could
instead travel to a health center for a procedure requiring more in-person contact and
posing a greater risk of COVID-19 infection. Pls.’ Opp’n Br. 25–28.
Defendants’ legal arguments were insufficient to carry the day when
Defendants sought a stay four months ago: this Court instead sought more factual
development on changed circumstances. See October Order, slip. op. at 1. That more
comprehensive factual record only magnifies the severe burdens that Defendants’
Requirements impose during what has since become an even more lethal pandemic.
3. Defendants Have Not Met Their Burden to Show Irreparable Harm.
As the district court noted, after months of real-life experience under the
injunction, Defendants “offered no evidence that their temporary inability to enforce
the In-Person Requirements has injured them or, for that matter, harmed a patient.”
Suppl. App. 29a (emphasis added). Defendants’ failure to show any harm, much less
irreparable harm, is dispositive. Ruckelshaus v. Monsanto Co., 463 U.S. 1315, 1317
(1983) (Blackmun, J., in chambers) (“[L]ikelihood of success on the merits need not
be considered . . . if the applicant fails to show irreparable injury” from stay denial).
Instead of citing any evidence of harm, Defendants note, repeatedly, that the
Requirements are “longstanding.” See Defs.’ Suppl. Br. 1, 3, 7; see also Stay Pet. 1–4,
13; Defs.’ Reply Br. 1, 7, 11. But that hardly establishes that a temporary suspension
during a declared Public Health Emergency (“PHE”) causes irreparable harm. Even
outside the pandemic, Defendants’ safety justifications are not supported by any
scientific data or technical analysis, see Pls.’ Opp’n Br. 35; Dkt. 62-6, 0356–57, and

15

are opposed by leading national medical experts, see Br. American Medical
Association et al. as Amici Curiae Supp. Pls.’ Opp’n Defs.’ App. Stay Pending Appeal
6–7 (Sept. 8, 2020). Now, months after medically eligible patients began obtaining
their mifepristone prescriptions by mail or delivery to avoid COVID-19 risk,
Defendants have not even attempted to show any harm. Nor have they ever
responded to the district court’s finding that the FDA never reviewed the central
factual question in this case: the impact of the Requirements on patient safety during
the COVID-19 pandemic. App. 53a. Even after this Court directed Defendants to build
a “more comprehensive record” to support their stay request, October Order, slip. op.
at 1, Defendants could not muster a single declaration from any FDA, HHS, or other
federal official to show harm of any kind, much less irreparable harm, Suppl. App.
28a. Rather, all of the record evidence demonstrates that Defendants’ Requirements
serve no beneficial purpose while affirmatively endangering patient health.
Moreover, as this Court explained in Roman Catholic Diocese of Brooklyn v.
Cuomo, blind deference to the government’s unsupported speculations about harm is
unwarranted even during a pandemic, and particularly when constitutional rights
are at issue. No. 20A87, 2020 WL 6948354, at *3 (U.S. Nov. 25, 2020) (per curiam).
Similarly, here, Defendants cannot meet their burden to show irreparable harm
based solely on unfounded speculation that the Requirements “could help avoid
potential delay” and “might” allow for counseling closer in time to when the patient
takes the pill, Stay Pet. 21–22 (emphasis added); see also Pls.’ Opp’n Br. 33–37, when
they offered no evidence of any harm after five months under the injunction.

16

Defendants have provided this Court no basis to conclude that denying a stay
Defendants first sought in August, and instead permitting Defendants’ appeal of the
preliminary injunction to continue in the normal course, will cause any harm.
4. Defendants’ Arguments for Narrowing the Injunction Are Meritless.
As the district court reiterated in its December ruling, “the scope of the
injunction is primarily based . . . on the actual geographic and professional breadth
of the members of the plaintiff organizations, who are located in all 50 states and
include more than 90 percent of the [nation’s] obstetrician/gynecologists.” Suppl. App.
33a–34a. A nationwide injunction was dictated by the need to protect Plaintiffs, their
members, and their patients across the country from a nationwide mandate. The
preliminary injunction likewise accounts for the “practical, administrative
complexities” that could impede complete relief of Plaintiffs’, their members’ and their
patients’ injuries, Pls.’ Opp’n Br. 44, and ensures fairness to vulnerable, similarly
situated patients during this national emergency, App. 76a.
Nevertheless, Defendants argued in their renewed motion that the court
should narrow the scope of the injunction because “many [states] have weathered
rising and falling COVID-19 rates, but they continue to move forward.” Dkt. 141-1,
24. Rejecting this empty argument, the district court explained that “even if at some
point since the issuance of the Preliminary Injunction there have been signs that
certain states were having success in responding to the COVID-19 pandemic, the
current circumstances are uniformly dire across the nation.” Suppl. App. 30a. With
rates surging nationwide—including in all seven states Defendants featured as
examples of improving conditions, id. at 9a–10a—the court found “no meaningful
17

basis by which to distinguish one state or region from others as uniquely free from
the health risks” underlying the preliminary injunction, id. at 30a.
Moreover, as the court found, Defendants themselves “have effectively
acknowledged” the uniform risks nationwide “through their decisions and actions
relating to the COVID-19 pandemic, which, from all angles, have been homogenous
across all regions of the country.” Id. For instance, the court noted that Defendants
have renewed the official COVID-19 PHE three times, “always maintain[ing] the
scope of the declaration at a nationwide level” despite legal authority and recent
precedent for PHEs limited to specific states or regions. Id. at 30a–31a. And just this
month, the FDA updated its guidance allowing drug sponsors to forgo in-person
requirements for clinical trials—including for drugs whose safety has not yet been
determined, see Dkt. 142-4, ¶¶ 22–24—“without any change to the nationwide scope”
of the policy. Suppl. App. 31a.13
Indeed, as the district court highlighted, Defendant Azar has designated that
patients “in all areas of the United States,” Dkt. 78, be able to obtain all schedule II
controlled substances, including opioids like fentanyl and OxyContin®, through
telemedicine during the PHE. Suppl. App. 17a; Dkt. 142-4, ¶¶ 13–17. Defendant Azar
deems the viral risks associated with traveling for health care during the PHE
sufficiently great to justify suspending, on a nationwide basis, a requirement that
patients meet with a clinician to be evaluated and counseled in person at least once

U.S. Food & Drug Admin., FDA Guidance on Conduct of Clinical Trials of Medical Products During
the
COVID-19
Public
Health
Emergency
3
(last
updated
Dec.
4,
2020),
https://www.fda.gov/media/136238/download. The district court’s decision refers to the FDA’s
September update, Suppl. App. 31a; neither update narrowed the nationwide scope.

13

18

before obtaining opioid drugs that, according to the FDA, cause such a “staggering”
number of overdose deaths each year that they are “reducing life expectancy in the
United States” and are the subject of their own national PHE. Suppl. App. 17a.14
In short, there is nothing in the original or supplemental record to support
Defendants’ arguments that the preliminary “injunction is overly broad in scope,
given that it applies nationwide and for an indefinite duration regardless of the
improving conditions in any individual State.” October Order, slip. op. at 1. To the
contrary, the preliminary injunction is entirely consistent with Defendants’ own
nationwide actions during the PHE with respect to other drugs; 15 terminates when
Defendants themselves end the nationwide COVID-19 PHE, App. 78a–80a; Dkt. 92,
¶ 2; and was a proper exercise of the district court’s discretion to ensure relief to
Plaintiffs and their members and patients nationwide, see Pls.’ Opp’n Br. 41–45.
CONCLUSION
For the foregoing reasons as well as those articulated in Plaintiffs’ September
8 response brief, Defendants’ renewed stay application should be denied.
14 Opioid Medications, U.S. Food & Drug Admin. (Aug. 4, 2020), https://www.fda.gov/drugs
/information-drug-class/opioid-medications; U.S. Dep’t of Health & Human Servs., supra note 2.
15 Defendants suggest that their extensive actions to mitigate viral spread by suspending in-person
requirements for other drugs nationwide, App. 44a, should not be construed as evidence that the InPerson Requirements impose serious viral risks, because the FDA has maintained a requirement for
in-person, clinically supervised dispensing and administration of 15 drugs out of the 20,000 it
regulates. See Defs.’ Reply Br. 8 (citing App. 67a); Fact Sheet: FDA at a Glance, U.S. Food & Drug
Admin., https://www.fda.gov/about-fda/fda-basics/fact-sheet-fda-glance (last visited Dec. 21, 2020).
Defendants can find no support in the fact that the FDA has maintained in-person clinical supervision
requirements for drugs that, e.g., carry “risk of immediate, life-threatening allergic reaction,” Dkt. 113, ¶ 60, when Defendants concede that mifepristone is the only drug in the nation that patients must
pick up in a clinical setting (during a pandemic, no less) even though they are free to self-administer
it, unsupervised, at the time and place of their choosing, Defs.’ Reply Br. 8. The district court properly
found that Defendants’ “extraordinary actions” to prevent patients nationwide from having to travel
for medical care underscore that the In-Person Requirements impose a substantial obstacle on patients
seeking medication abortion care during the PHE. App. 44a, 49a.

19

December 22, 2020
Respectfully submitted,
/s/ Julia H. Kaye
John A. Freedman
R. Stanton Jones
David J. Weiner
Jocelyn A. Wiesner
Andrew Tutt
Gina Colarusso
ARNOLD & PORTER KAYE
SCHOLAR, LLP
601 Massachusetts Ave., NW
Washington, DC 20001
David D. Cole
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15th Street, NW
Washington, DC 20005

Julia H. Kaye
COUNSEL OF RECORD
Jennifer Dalven
Rachel Reeves
Whitney White
Ruth E. Harlow
Louise Melling
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
Phone: (212) 549-2633
jkaye@aclu.org
Lorie A. Chaiten
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
1640 North Sedgwick Street
Chicago, IL 60614
Attorneys for Plaintiffs-Respondents

